U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


            BUREAU OF THE CENSUS

 Improvements Needed in Multiple Response
     Resolution to Ensure Accurate, Timely
  Processing for the 2000 Decennial Census

        Inspection Report No. OSE-10711 / September 1999




                             Office of Systems Evaluation
U.S. Department of Commerce                                                                                    Report OSE-10711
Office of Inspector General                                                                                     September 1999


                                                       Table of Contents


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBSERVATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

I.        Dress Rehearsal Indicates That the Bureau Can Improve MRR Accuracy . . . . . . . . . . . . 8
          A.     Dress Rehearsal Evaluation Raises Accuracy Issues . . . . . . . . . . . . . . . . . . . . . . . 8
          B.     MRR Must Address Questionnaire Data Quality Problems . . . . . . . . . . . . . . . . 11
          C.     MRR Rules and Software Warrant Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

II.       A More Structured Development Approach Would Improve MRR Software . . . . . . . . 15
          A.    Bureau Software Engineering Standards Are Available but Not Widely Used . . 16
          B.    The Bureau Should Define MRR Requirements More Explicitly . . . . . . . . . . . . 16
          C.    MRR Software Testing Needs to Be More Complete . . . . . . . . . . . . . . . . . . . . . 19
          D.    Beginning-to-End Testing Is Needed to Ensure Consistent Results . . . . . . . . . . 20

III.      Improvements Are Needed to Make MRR Processing Timely for the 2000 Census . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
U.S. Department of Commerce                                                   Report OSE-10711
Office of Inspector General                                                    September 1999

                                  EXECUTIVE SUMMARY

To make it easier for people to be counted in the 2000 Decennial Census, the Census Bureau will
provide several ways for households to respond. In addition to collecting data through mailed
questionnaires and enumerator operations, the bureau will enable the public to initiate responses
on forms available in public places, by telephone, or the Internet. While multiple methods of
responding increase the opportunities for people to be counted, they also increase the likelihood
of receiving multiple responses for some housing units, with some responses including the same
people and others reporting people for the first time. The bureau has devised a set of rules to
count individuals at each address and has automated this process, called multiple response
resolution (MRR).

We conducted this evaluation to determine whether MRR is likely to resolve multiple responses
correctly—that is, when multiple responses are received, MRR will include people at an address
who resided there on Census Day (April 1, 2000) and omit people who did not reside there on
Census Day or whom MRR already counted via another response. We also sought to determine
whether MRR could accomplish its work in the allotted time during the decennial. Beginning in
February 1998, we observed the bureau’s preparations for using MRR for the dress rehearsal and
reviewed results from its processing of dress rehearsal response data.

According to the Census Bureau, advances in computer technology provide the flexibility to offer
multiple response options without incurring undue risk to the accuracy of the resulting census
data. The bureau’s Census 2000 Dress Rehearsal Report Card asserts error rates as low as 0.3
percent for MRR. However, this statistic reflects the impact of MRR errors on the total
enumeration. It does not reflect the accuracy of MRR in resolving multiple responses, which in
the bureau’s dress rehearsal evaluations showed significantly higher error rates (see page 8).

We found several conditions that diminished the accuracy of MRR in the dress rehearsal. Issues
associated with questionnaire design, the way in which the public completed the questionnaire,
and automated data capture sometimes caused inaccurate data to be sent to MRR processing,
which then could not produce accurate results. In addition, the MRR software sometimes
produced questionable results in selecting the persons who make up a particular household and in
determining whether duplicate sets of data represented the same person. MRR analysts are
reviewing the dress rehearsal and evaluation data to determine what modifications are needed to
the rules and associated software for resolving multiple responses (see page 11).

The Census Bureau cannot ensure that MRR is implemented correctly because it did not use a
sufficiently structured approach in developing the MRR software. A more structured approach,
using software engineering standards, would help ensure correct implementation of MRR. In
particular, conformance to a software engineering standard for specifying requirements would
produce a more accurate, complete requirements specification that would benefit users and
developers alike during software development and testing. The bureau has established such a

                                                i
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999

standard, but it has not yet been widely adopted by decennial staff. In addition, software testing
needs to be expanded to address more diverse response data and assure that MRR can reliably
handle a wide array of potential input conditions. Finally, the bureau needs to undertake a
coordinated effort to perform beginning-to-end testing of questionnaire data processing to ensure
that the output from each step is accurate and can be input into the next step without error (see
pages 15 and 20).

According to the Census Bureau, MRR processing for the decennial census will need to be
completed within 30 days to ensure timely availability of data for follow-on processing
operations. However, dress rehearsal results indicate that unless improvements are made, MRR
processing for the decennial census will require approximately 87 days. The bureau needs to
modify MRR software to reduce excessive processing time and obtain additional headquarters
computing resources (see page 21).

As a result of these issues, important decisions concerning MRR requirements and design must
be made and significant development and testing work accomplished. The bureau has
recognized many of the problems that we have discussed and is analyzing the dress rehearsal data
and working on improvements to MRR. The bureau has also made substantial improvements to
the data capture system since the dress rehearsal. However, the bureau has not fully defined the
activities needed to refine MRR and complete its development. To ensure that MRR is correctly
implemented and well tested for the 2000 Decennial Census, the bureau should define these
activities and develop and implement a plan for their completion (see page 23).

Our complete recommendations begin on page 24.



In its response to our draft report, the bureau stated that, with one exception, it concurs with, or
had already acted upon, our recommendations. The exception regards specifying the software
requirements necessary to address data quality issues, such as how to handle incomplete,
inconsistent, or erroneous data (Recommendation No. 4d). The bureau requested clarification of
this recommendation, which we provide on pages 18-19. Although the bureau concurred with
our recommendation to perform beginning-to-end testing of the questionnaire data processing
stream (Recommendation No. 5f), we believe that the planned testing, while valuable and
needed, will not fully address the concerns we identify in this report. Our comments on pages
20-21 describe the type of testing that would be responsive to our recommendation. The bureau
also provided comments on several aspects of our observations. Based on these comments, we
amplified our discussion of questionnaire design and modified the title of Observation II. B. to
avoid any confusion between establishing standards for MRR accuracy and writing software
requirements specifications according to software engineering standards. The bureau’s response
is included in its entirety as the appendix to this report.


                                                 ii
U.S. Department of Commerce                                                                    Report OSE-10711
Office of Inspector General                                                                     September 1999


                                              INTRODUCTION

The Bureau of the Census conducted the 1998 Dress Rehearsal to test methods and systems that
are planned for the 2000 Decennial Census. Because of the importance of the dress rehearsal to
the success of the decennial census, we have been evaluating critical information technology
components used to conduct the dress rehearsal, including data capture, the personnel and
payroll processing systems, and headquarters processing. This report addresses multiple
response resolution (MRR), a component of headquarters processing. Our evaluation of data
capture was presented in a report entitled, Data Capture System 2000 Requirements and Testing
Issues Caused Dress Rehearsal Problems.1 We found that the data capture system experienced
serious problems in dress rehearsal resulting from insufficient testing and from difficulties in
controlling and communicating requirements.

The availability of multiple methods of responding to the census has significantly increased the
potential for persons and households to submit multiple responses. In addition to bureau-
initiated enumeration, the bureau will enable the public to initiate responses on forms available in
public places or via telephone or the Internet. While multiple methods of responding increase the
opportunities to ensure that people have been counted, they also require the capability to resolve
situations in which more than one response for a housing unit2 is received.3 In the past, the
bureau has tested some operations requiring resolution of multiple responses and has developed
automated and clerical methods to process them. New operations such as the Be Counted
program4 create the prospect of receiving forms from unknown residences and obtaining
fragmented household responses—adding new complexity to data processing development tasks.

The Census Bureau developed MRR software to consolidate questionnaire data submitted for a
residence on multiple forms. The bureau used MRR software to process 1998 Dress Rehearsal
response data. MRR is one step in the multi-step process within headquarters computer
processing that culminates in the apportionment counts and other products of tabulating census


         Data Capture System 2000 Requirements and Testing Issues Caused Dress Rehearsal Problems, OSE-
         1

10846, January 1999.
         2
          A housing unit is a house, an apartment, a mobile home or trailer, a group of rooms, or a single room
intended for occupation as separate living quarters to which there is direct access from outside the building or
through a common hall.
         3
         Resolving more than one response for a housing unit means choosing the appropriate data from multiple
census questionnaires identified with that housing unit to represent that housing unit in the census.
         4
          The Be Counted program targets areas that are traditionally undercounted by placing census
questionnaires at accessible sites so people who believe they were not counted can pick them up, complete them,
and mail them to the bureau.

                                                          1
U.S. Department of Commerce                                                                Report OSE-10711
Office of Inspector General                                                                 September 1999

data. MRR processes all housing unit questionnaire data by comparing data on all forms
received for an address, identifying duplicate persons, and choosing members of each household.
Since this processing affects the counts, it is vital that MRR software operate correctly and
reliably.


                                          PURPOSE AND SCOPE

In November 1997 we reported that the bureau was developing software for decennial
headquarters processing without a well-defined software development process based on software
engineering principles.5 To follow up on that work, we conducted this evaluation to study one
system in depth, MRR. Our inspection objectives were to: (1) evaluate MRR requirements
specifications to determine if they are appropriate, sufficiently defined, and clearly
communicated, (2) determine if the data and software design will result in efficient, reliable
processing, (3) determine if a comprehensive set of test cases that fully tests the requirements and
a definitive method that correctly evaluates the outcome have been articulated, and (4) assess
plans to capture lessons learned from the 1998 Dress Rehearsal and apply them to the 2000
Decennial Census.

During our evaluation, we reviewed requirements specifications, design documentation, software
code, test plans, test data, test results, and Census Bureau evaluation reports pertaining to the
dress rehearsal. We also reviewed relevant documentation and operational assessments from the
1995 and 1996 census tests, and available dress rehearsal data processing results. In addition, we
met with representatives from the Census Bureau’s Decennial Systems and Contracts
Management Office, Decennial Statistical Studies Division, Statistical Research Division,
Systems Support Division, and the MRR team.

With respect to our objectives to evaluate the requirements specification and testing, we analyzed
two key documents6 regarding the two principal MRR elements, Within-Block Search (WBS)
and Primary Selection Algorithm (PSA). The remainder of this report refers to these documents
as the specification and the test plan, respectively:

l       Revised Specifications for the Within-Block Search and Primary Selection Algorithm in
        the 1998 Dress Rehearsal, Bureau of the Census, May 27, 1998.7


        5
       Headquarters Information Processing Systems for the 2000 Decennial Census Require Technical and
Management Plans and Procedures, OSE-10034, November 1997.
        6
         These documents are Census Confidential, which means that they are available to personnel involved in
developing, testing, and required evaluations.
        7
         An algorithm is a set of steps for solving a particular problem.

                                                          2
U.S. Department of Commerce                                                                    Report OSE-10711
Office of Inspector General                                                                     September 1999


l        Census 2000 Dress Rehearsal Test and Acceptance Plan for the Within-Block Search
         (WBS) and Primary Selection Algorithm (PSA), Bureau of the Census, September 11,
         1998.

To assist in our evaluation of the bureau’s software testing, we also reviewed input and output
data made available to us from MRR testing efforts. We used the bureau’s documentation on
applicable data files to understand this data.

To determine whether the data and software design would result in efficient, reliable processing,
we reviewed design documentation, code, the structure of the decennial response file, and logs
from the September 2, 1998, production processing of dress rehearsal data.

To assess the ability of the software to determine matches of person data accurately, we reviewed
output of the Service-Based Enumeration (SBE)8 component of dress rehearsal processing, which
employs the same matching software as MRR.

To assess how the bureau plans to capture lessons learned from the 1998 Dress Rehearsal and
apply them to the 2000 Decennial Census, we reviewed the MRR evaluations:9

l        Evaluation Memorandum F1c and F2b, The Within-Block Search and Primary Selection
         Algorithm Operational Evaluation, January 31, 1999,

l        Census 2000 Dress Rehearsal Evaluation Results Memorandum Series #F2a, Within-
         Block Search Expansion Evaluation Draft, March 11, 1999, and

l        Census 2000 Dress Rehearsal Evaluation Results Memorandum Series #F1b, Results of
         the Evaluation of the Primary Selection Algorithm, [undated].

We also evaluated the bureau’s efforts to modify the implementation of these elements resulting
from lessons learned from the dress rehearsal.

The purpose of this report is to inform the bureau of difficulties that we observed in
implementing MRR. The team working to develop MRR has done a commendable job on a
complex problem under difficult circumstances. We urge bureau management to support the
team in refining and thoroughly testing MRR to ensure high quality results in the decennial
census.


         8
           The SBE operation is designed to enumerate people at facilities where they might receive services, such as
shelters, soup kitchens, health-care facilities and other selected locations. This operation targets the types of
services that primarily serve people who have no usual residence.
         9
          The bureau restricts distribution of these dress rehearsal evaluation reports regarding MRR.

                                                         3
U.S. Department of Commerce                                                               Report OSE-10711
Office of Inspector General                                                                September 1999

This inspection has been conducted in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections, March 1993, issued by the President’s
Council on Integrity and Efficiency.


                                             BACKGROUND

Because the 2000 Decennial Census will provide several ways for households to respond, it is
highly probable that there will be multiple responses for some housing units. Therefore, the
complete set of census response data for housing units must be viewed as potentially including
(a) multiple responses for a housing unit having person data in common, (b) multiple responses
for a housing unit not having person data in common, and (c) person data in common among
responses of different housing units. The Census Bureau has implemented MRR computer
processing to select the residents of a housing unit that has submitted multiple responses and to
prevent data resulting from multiple responses for the same person from being erroneously
included in the census. Each housing unit has a unique identifier called a census housing unit ID,
which processing prior to MRR uses to associate responses with an address. Then, MRR uses
two elements to search for person matches among multiple returns. WBS resolves duplicate
person data among returns at the same or different addresses within a defined area when those
persons have been reported on Be Counted Form Equivalents (BCFEs),10 while PSA resolves
multiple responses within the census housing unit ID.

Earlier Experiences with Multiple Responses for a Census Housing Unit ID

In the 1990 Decennial Census, multiple responses occurred for a census housing unit ID because
1990 had overlap between mail and non-response follow-up (NRFU) enumerations. The bureau
consequently received both mail and enumerator returns for some households. Also, data capture
allowed corrections to the paper form which was then recaptured. This recycling of the paper
form through data capture could occur repeatedly. To select the “best” questionnaire record for
an ID, the bureau designed and implemented the PSA program.11 This PSA version selected the
data of one primary questionnaire (with possible supplemental questionnaires for large
households) with all persons intact to represent the census housing unit ID.

Additional opportunity for multiple responses arose in the 1995 Census Test, which was
conducted at three sites. In addition to mail returns, the public could respond by using widely


        10
           BCFEs include the paper “Be Counted” questionnaire forms, Telephone Questionnaire Assistance (TQA)
interviews initiated by the respondent, paper mail return questionnaires sent by TQA upon request of the
respondent, and Individual Census Questionnaires (ICQ), Individual Census Reports (ICR), and Military Census
Reports (MCR) if the ICQ, ICR, or MCR have been assigned a census housing unit ID.
        11
          Description of the Decennial Census Algorithm for the Selection of the Primary and Supplemental
Records from the 1990 FOSDIC Data Capture Files, Susan P. Love, November 27, 1990.

                                                       4
U.S. Department of Commerce                                                          Report OSE-10711
Office of Inspector General                                                           September 1999

distributed “Be Counted” forms and by telephone. Data capture keying methods input persons’
names as well as population data (e.g., sex, age, and race). The bureau designed a more complex
PSA to resolve multiple responses for each ID by selecting unique persons and marking duplicate
person entries. An automated matching algorithm compared person data on pairs of responses
and scored resultant pairs of persons based on the weights of matching data it found. Multiple
responses requiring computer matching occurred for 2.64 percent of the total 178,680
households, or some 4,717 households. Under some conditions, clerks reviewed the multiple
responses for an ID to minimize matching errors. Clerical review resolved 17 percent of cases
submitted to computer matching.12 A slightly modified 1995 version of PSA also processed data
collected during the 1996 Community Census. However, the bureau eliminated the clerical
review step because of insufficient time to conduct such a review.

The MRR Team

A team of analysts has defined the operational concepts and system requirements for MRR for
the 1998 Dress Rehearsal and 2000 Decennial Census. Since the dress rehearsal and decennial
census employ operations for obtaining responses that are new or expanded from the mid-decade
tests, the likelihood of multiple responses for households and persons at census housing unit IDs
has increased. The MRR team is responsible for producing the specifications that define the
software requirements. Permanent members of the MRR team include personnel from the
Decennial Statistical Studies Division and Decennial Systems and Contracts Management Office.
Members from the former office are statisticians who provide the information on the functions
that MRR must perform and review the input data and results for correctness. The latter office
contains the processing systems group, which is responsible for developing the software for
several processing components including MRR and running them operationally to produce
official results. The software developers have also worked on defining the functional and
software requirements. Since requirements specifications reflect decisions regarding statistical
methods, Decennial Statistical Studies Division management signature is required to indicate that
consensus has been reached before releasing the specifications to software developers.

The MRR team has had to contend with issues such as determining the geographic boundaries
within which to search for duplicate responses for a person reported on a BCFE, deciding the
criteria to use to define a household and to select the primary household, and specifying what
data are required to qualify a person entry on a questionnaire as having information sufficient for
matching. For the dress rehearsal, the team also had responsibility for developing the Invalid
Return Detection requirements. However, because detection of invalid (or fabricated) returns is
not a multiple response issue, it is not a responsibility of the MRR team for the Census 2000
program. The team also engineered and conducted system testing, which included developing



        12
         1995 Census Test Results Memorandum No. 50, Theresa Leslie and Maureen Lynch, Bureau of Census,
Appendix 4, pp. 4-5.

                                                    5
U.S. Department of Commerce                                                                  Report OSE-10711
Office of Inspector General                                                                   September 1999

the test plan, preparing test decks to model various multiple response scenarios, conducting the
testing, analyzing the results, and correcting and re-testing the software as necessary.

Major Elements of MRR

MRR consists of a sequence of processing steps that is executed in batch (non-interactive) mode.
Figure 1 shows a simplified view of headquarters processing leading up to creation of the Census
Unedited File (CUF),13 with the scope of MRR processing outlined in blue. The elements of
MRR are described as follows:

l       Decennial Response File - Stage 2 (DRF2)14 is both the input and output file for MRR
        and contains data fields whose values are compared to determine matching person
        records.

l       WBS is a software program that performs a search and match operation for DRF2 person
        data records submitted on BCFEs when there is more than one response for a census
        housing unit ID. The search is conducted among census housing unit IDs within a
        defined area. If a match is found, WBS chooses one person entry and marks the other for
        deletion. WBS was developed and used operationally for the first time in the dress
        rehearsal.

l       PSA, whose implementation is based on the software program developed for the 1995
        Census Test, determines which DRF2 person records for a given census housing unit ID
        are to be counted. Since it is possible for the same person to be included on different
        census forms for the same census housing unit ID, PSA performs a search and match
        operation between the person records on pairs of response records for an ID. The PSA
        uses the presence or absence of person matches along with a set of rules to create groups
        of person records that are considered households by the PSA process. Other rules are
        used to determine exactly which persons are to be included at that ID.

l       Statistical Research Division (SRD) Matcher is a software program invoked by both
        the WBS and PSA elements to match pairs of person records. The matcher assigns


        13
          The output from PSA retains the name of DRF2 and is used to create the CUF, which merges census
housing unit ID information from the Decennial Master Address File (DMAF) with data associated with each
census housing unit ID from the DRF2. The CUF also contains standard codes for fields that may contain write-in
information such as race and relationship for easy tabulation.
        14
           The DRF is processed in two stages. Stage 1 creates DRF1 with the receipt of the first response records
and is conducted on a continuing basis as response records are delivered to bureau headquarters from data capture
operations. Selected DMAF variables are added to the DRF1 as it is sorted by block and census housing unit ID
and before it is input to DRF2 creation. DRF1 is input to stage 2 which includes MRR and runs once to create a
final DRF2.

                                                         6
U.S. Department of Commerce                                     Report OSE-10711
Office of Inspector General                                      September 1999




  Figure 1. Scope of MRR Processing



        DRF1                           PRE-MRR
                                      PROCESSING



                                        DRF2




                                        WBS
                                             SRD Matcher




                                        DRF2




                                        PSA
                                             SRD Matcher




                                        DRF2



                                          CREATE CENSUS UNEDITED FILE (CUF)




                                         7
U.S. Department of Commerce                                                                Report OSE-10711
Office of Inspector General                                                                 September 1999

        weights based on probabilities to each characteristic compared, and adds them to arrive at
        a score. WBS and PSA compare the score to a cut-off weight to determine whether to
        treat the pair as a match. WBS and PSA invoke the same version of the matcher
        program; however, WBS requires more restricted conditions for matching persons from
        different census housing unit IDs than PSA uses for matching persons in the same ID.


                                              OBSERVATIONS

I.      Dress Rehearsal Indicates That the Bureau Can Improve MRR Accuracy

The bureau has issued its dress rehearsal report card,15 which assesses the performance of six
dress rehearsal operations. One of those operations is MRR, the focus of this evaluation.
Despite the high accuracy rating attributed to MRR by the report card, we have found areas of
concern to include (1) the report card rating of MRR versus evaluation results, (2) accuracy of the
questionnaire data, and (3) unexpected results from MRR processing that warrant review.

A.      Dress Rehearsal Evaluation Raises Accuracy Issues

 The bureau’s August 1997 Report to Congress—The Plan for Census 2000 states, “Advances in
computer technology in the areas of computer storage, retrieval, and matching, along with image
capture and recognition, have now given the Census Bureau the flexibility to provide multiple
response options without incurring undue risk to the accuracy of the resulting census data.”16
This statement prompts the question of how accurately multiple responses actually are resolved.
The Census 2000 Dress Rehearsal Evaluation Program has planned and implemented evaluations
on some aspects of MRR and reported the results. The bureau has issued the Census 2000 Dress
Rehearsal Report Card, which states the following accuracy levels for MRR processed data:

l       For the type of error of including persons that a follow-up interview determined were not
        residents, the percentage was 0.3 percent for both the Sacramento and Columbia, South
        Carolina dress rehearsal sites.

l       For the type of error of omitting persons that a follow-up interview determined were
        residents, the percentage was 0.4 percent for Sacramento and 0.3 percent for Columbia.

The bureau’s dress rehearsal evaluation plan had set accuracy standards for MRR based on the
percent of erroneous enumerations in the 1990 Census as measured by the Post Enumeration


        15
          Census 2000 Dress Rehearsal Report Card —Evaluation of the Standards for Success, Bureau of the
Census, February 1999.
        16
             Report to Congress—The Plan for Census 2000, Bureau of the Census, August 1997, p.13.

                                                        8
U.S. Department of Commerce                                                                Report OSE-10711
Office of Inspector General                                                                 September 1999

Survey (PES). These standards were 4.6 percent for erroneously included persons (overcount)
and 1.3 percent for erroneously omitted persons (undercount).17 Since the reported error rate for
erroneously including persons for both sites was 0.3 percent, the report card claimed that this
error rate met the standard. Similarly, reported error rates for erroneously excluding persons also
met the standard.

The report card obtained these error rates from the draft report for the Evaluation F1b,
Evaluation of the Primary Selection Algorithm.18 This evaluation report puts these error rates in
perspective by stating that if the evaluation method had found that all persons selected by the
PSA were selected in error, then the selected in error rate would be 3.1 percent in Sacramento
and 2.3 percent in South Carolina. Similarly, if the evaluation method had found that all persons
excluded by the PSA were excluded in error, then the excluded in error rate would be 1.0 percent
in Sacramento and 0.8 percent in South Carolina.

So, even if the PSA element of MRR operated completely in error (excluded all residents and
included all non-residents found on multiple responses), the values that would then be used in the
report card would still meet the standards set in the evaluation study plan. The report card
concluded that MRR did not create a problem relative to the overall accuracy of dress rehearsal
enumerations.19

Bureau statisticians who define and develop MRR disagree with the use of PES percentages of
erroneous inclusions and exclusions as the standard to which MRR results should be held. The
percentage values are obtained by comparing response data from the census to data gathered
during the PES. This comparison provides the numbers of matching and non-matching responses
from the two operations. Matching and non-matching values support the dual-system estimation
method20 used to estimate the true population. Bureau statisticians working on MRR state that
calculating percentages of matches and non-matches and using them as the standard for MRR is
invalid because these discrepancies occur for many reasons in addition to incorrect decisions by
MRR. Recognizing the controversy within its own staff, the bureau later amended the standard
to read, “small relative to 4.6 percent” for the number of persons included in error and “small
relative to 1.3 percent” for the number of persons excluded in error. The bureau should develop
an appropriate standard of measuring the success of MRR processing.


          17
          Census 2000 Dress Rehearsal Evaluation Program Draft, Bureau of the Census, March 10, 1998,
revised May 15, 1998, Appendix E.
          18
           Census 2000 Dress Rehearsal Evaluation Results Memorandum Series #F1b, Results of the Primary
Selection Algorithm Draft, Bureau of the Census, [undated].
          19
               Report Card —Evaluation of the Standards for Success, p. 8.
          20
               Tommy Wright, “Sampling and Census 2000, The Concepts,” American Scientist, May-June 1998,
p. 252.

                                                            9
U.S. Department of Commerce                                                           Report OSE-10711
Office of Inspector General                                                            September 1999

The report card identified the impact of MRR errors on the total enumeration, but it did not
report the accuracy of MRR in resolving multiple responses. The manner in which the error rates
in the report card were calculated resulted in substantial understatement of both the erroneous
inclusions and erroneous exclusions produced by MRR. For example, in Sacramento, the
number of persons belonging to households was about 300,000—which was the value used in the
denominator of the erroneous inclusion rate. However, PSA obtained data from multiple
responses for approximately 10,000 persons of that population. When calculating the error rate
with the denominator equal to this value, the result is 9 percent. This is 30 times the error rate
presented by the report card. Table 1 shows a summary of error rates for the two types of errors
that the bureau evaluated for the dress rehearsal sites

                                              Table 1
                              Dress Rehearsal Multiple Response Rates


 Site             Type of Error       PES Standard     Report Card   Total Possible     Multiple Response
                                                                      MRR Error            Error Rate

 Sacramento       Included in error        4.6%            0.3%          3.1%                 9%

                  Excluded in error        1.3%            0.4%          1.0%                 11%

 Columbia         Included in error        4.6%            0.3%          2.3%                 14%

                  Excluded in error        1.3%            0.3%          0.8%                 11%



The bureau’s dress rehearsal evaluation provides data that the MRR team is analyzing to adjust
the algorithm for the decennial. This effort is important because the decennial will increase the
number and variety of conditions under which multiple responses occur. Modifying MRR to
process multiple response data more accurately will aid in reducing the overcount and the
undercount that could potentially be caused by multiple responses.

l       The third column, PES Standard, shows the PES standard as previously discussed.

l       The fourth column, Report Card, shows the error rates presented in the report card.

l       The fifth column, Total Possible MRR Error, shows the percentage value of the ratio of
        person data originating on multiple responses to the site’s total population. These values
        indicate the percentage of error MRR would contribute to the total count if MRR resolved
        all multiple responses erroneously.

l       The sixth column, Multiple Response Error Rate, shows the error rates calculated by
        dividing the weighted number of persons in error by the total weighted number of persons
        whose data was obtained from multiple responses. We believe that the error rates shown

                                                     10
U.S. Department of Commerce                                                               Report OSE-10711
Office of Inspector General                                                                September 1999

        in the sixth column give a more valid measure of how well MRR software made the
        decision to include or exclude persons in the household. These equal the error rates
        calculated by the Census Bureau’s evaluation team.

The report card’s use of error rates which were so low as to suggest that MRR worked nearly
perfectly is misleading. Inferences from these error rates would suggest that any efforts to
improve MRR are unnecessary. However, the evaluation data indicates weak areas where
improvement is needed. The MRR team is using the evaluation data to improve MRR
processing, and we encourage the bureau to support the team in this effort. In reporting on MRR
performance in the future, the bureau should identify both the accuracy of MRR in resolving
multiple responses and the impact of MRR errors on the total enumeration.

B.      MRR Must Address Questionnaire Data Quality Problems

Data quality affects the accuracy of any processing. Obtaining accurate input data starts with the
respondent filling out the census form legibly and with complete and correct information
properly placed on the form. Next, the data capture operation submits these forms to the
automated system, DCS 2000, which converts write-in and check box data from the
questionnaires into standard computer format. If DCS 2000 inaccurately converts this data to
computer format, those errors propagate through all downstream processing including MRR.
Missing, incomplete, or erroneous data in certain questionnaire fields affects the ability of MRR
to match person data.

The DCS 2000 program has made significant improvements to the accuracy of data capture since
the dress rehearsal and is continuing to do so.21 Errors will remain, however, because no method
of capturing data from census questionnaires will be error free. We also recognize that at this
late date, it is not advisable or feasible to make changes to the questionnaires. However, when
refining and improving MRR, it is important for the bureau to be aware of problematic
conditions that the software must handle. The following discussion is intended to raise the
visibility of these conditions.

The questionnaires’ lack of instructions or questions to obtain necessary information, phrasing of
instructions and questions, and layout of blank fields where respondents write their data have
confused some respondents. The quality of some responses indicates the following questionnaire
issues:



        21
           The most recent analysis conducted by the RIT Research Institute showed accuracy rates for short form
mail return write-in data of between 99.36 percent and 99.56 percent including blank fields and between 97.33
percent and 98.14 percent excluding blank fields. For check box data, the accuracy rate including all fields was
99.47 percent and excluding blank fields was 98.82 percent. See Joint R&D Project to Advance Technology for
Data Capture System, Management Summary for February 1999, RIT Research Corporation, Rochester, NY, March
15, 1999.

                                                      11
U.S. Department of Commerce                                                            Report OSE-10711
Office of Inspector General                                                             September 1999

l       The questionnaires do not explain that an automated system will read and interpret the
        responses and that for this automated process to work accurately, respondents must print
        well-formed characters in the spaces provided.

l       The forms do not include a warning that the automated process cannot capture responses
        in red ink.

l       The forms do not show how to mark an answer indicator box so it is machine-readable.
        Also, some questions require exactly one choice while others allow one or more. Some
        respondents appeared to be confused and supplied more than one response when exactly
        one was required.

l       The forms do not provide separate space for a generational suffix field (such as Jr., Sr.,
        III). The generational suffix helps distinguish between two person entries with identical
        first and last names, and lack of this information has led to suspected errors.

Some MRR test case results demonstrated that since there is no provision for the respondent to
indicate that more than one household cohabits the same residence, when two families at the
same census housing unit ID each submit their own non-BCFE questionnaire response, MRR
will choose one family over another when both should be recorded at that address.

If the respondent omits certain information, the data cannot be compared to other more complete
entries to detect matching responses for a census housing unit ID. As noted in the OIG report,
Columbia Dress Rehearsal Experience Suggests Changes to Improve Results of the 2000
Decennial Census,22 there were numerous instances in SBE operations in which the same person
was counted multiple times by enumerators but the questionnaires provided incomplete data.
These duplicate responses were not detected because of insufficient information. Similarly,
incomplete person responses on housing unit records, particularly from enumerator operations,
have been observed by census personnel to impair correct resolution of multiple responses. The
bureau should stress during enumerator training how incomplete data impacts the accuracy of
census results.

Also, bureau analysts have expressed concern about the reliance of DCS 2000 on optical
character recognition (OCR) and optical mark recognition (OMR), and are exploring ways to
improve the keying of data that the system cannot accurately process. DCS 2000 was designed to
identify questionable data and send it for human review and correction through the process




        22
          Columbia Dress Rehearsal Experience Suggests Changes to Improve Results of the 2000 Decennial
Census, Inspection Report No. ESD-10783-8-0001, September 1998.

                                                    12
U.S. Department of Commerce                                                               Report OSE-10711
Office of Inspector General                                                                September 1999

known as key from image (KFI).23 During dress rehearsal, numerous instances of converted data
were sent to KFI because of low confidence in OCR and OMR results. However, limitations in
the types of review and corrections permitted during dress rehearsal did not always enable
complete and efficient correction of erroneous data. In some cases, fuller portions of the
questionnaire needed to be viewed for the KFI operator to know what the correction should be.
Also, in dress rehearsal, the operators were instructed to key what they saw on the form without
using human judgement, even if what was written was clearly invalid. For example, a respondent
would write “May” in the month of birth field instead of the acceptable numeric value “05.”
According to instructions, the operator was not to convert the letter version to the number.
Discussions are underway on how best to develop “intelligent keying” guidelines to mitigate this
limitation for the decennial.

The forms filled out by the public repeat the questions for each person. Not only does that
require more paper for each questionnaire, it slows the respondent down by inhibiting an efficient
way of answering the questions, and it complicates the data capture operation by requiring more
sheets and folds of sheets of paper to be handled. During dress rehearsal, there were mismatched
sheets among questionnaires as a result. The enumerator questionnaire for the short form has the
most efficient format where data for the whole household can be completed and viewed in rows
and columns across one open sheet. At this late date, we are not advocating questionnaire
redesign, but in future censuses, developing questionnaires and instructions that better facilitate
accuracy should be a top priority.




In its response, the bureau maintains that the questionnaires’ design is based on extensive
cognitive research and is constructed to lead people to respond as accurately as possible.
However, processing problems did arise from the questionnaires’ design as discussed in this
section. Further, the bureau maintains that research has found that extensive instructions do not
increase the accuracy of the responses. An approach that does not require extensive instructions
might be to include a brief caveat at the beginning of the questionnaire that explains that the form
is machine-read. This would alert the respondent to confine the answers to spaces provided.
More balance in weighing the trade-offs between “user-friendly” and technically feasible could
improve the quality of the processed response data.

C.      MRR Rules and Software Warrant Review

Several members of the MRR team are analyzing results from MRR processing of dress rehearsal
data because of questionable resolution of multiple responses. The two elements that they are


        23
           Data Capture System 2000 resorts to KFI, and Key-From-Paper (KFP) under specific conditions that
indicate probable OCR and OMR errors.

                                                      13
U.S. Department of Commerce                                                           Report OSE-10711
Office of Inspector General                                                            September 1999

primarily analyzing are the order in which PSA applies its selection criteria and the correctness of
the matcher’s rating of pairs of person data to determine if they represent the same person. This
section discusses the rationale motivating this analysis and subsequent modification of the
software to improve its accuracy in performing these functions.

During dress rehearsal, there were instances where the matcher results were not what the bureau
analysts expected and did not appear to be accurate. Questionable matches were identified
during processing of SBE data, which uses the same version of the matcher as MRR and the
same constraints as the outside-census housing unit ID portion of WBS. In addition, the matcher
has given persons sharing birthdays or close in age and having similar names scores that indicate
they are duplicates. However, upon close examination of such duplicate pairs, we questioned
whether such persons might be twins, cousins, or related in some other way. We also questioned
removal of persons who had some data in common, but other data that was considerably
different. Removing one of such matching pairs erroneously would make the final results less
accurate. Review of MRR testing revealed similarly questionable results. The “Results and
Analysis” section of the test plan acknowledges these instances and notes that a clerical
procedure might preclude such questionable matches.24

MRR uses the version of the matcher which the bureau modified for the 1995 test to
accommodate commonly made typographical errors. The bureau now utilizes DCS 2000, which
primarily uses OCR to capture handwritten responses. However, the bureau has not analyzed
OCR errors that the matcher could also accommodate. Because OCR introduces different errors
from keyed data, we are concerned that some of the decisions made by the matcher in its scoring
process may not be appropriate. Since the input data is obtained through OCR, and keying when
DCS 2000 has calculated a low confidence in the OCR data, the bureau needs to review matcher
performance against these conditions to ensure accurate matching.

Because of concerns about the matcher software’s performance in operations during the dress
rehearsal, the lead programmer of MRR has initiated an effort to assess the matcher’s
performance on dress rehearsal data. The assessment will use a subset of the dress rehearsal data
consisting of all households for which multiple returns were received. After establishing
guidance for each member to use to determine whether persons from different returns match, the
team is manually identifying all person matches across all returns for a household. This effort
will establish a truth set to serve as the basis for assessing matcher performance. The team plans
to use the matcher software to identify matches across these same returns and then determine
how closely the matcher results correspond to the truth set established manually. Current plans
are to adjust the parameter file used by the matcher to score the data until results agree closely
with the results of the manual matching.



        24
         Census 2000 Dress Rehearsal Test and Acceptance Plan for the Within-Block Search (WBS) and
Primary Selection Algorithm (PSA), Bureau of the Census, September 11, 1998, p. 81.

                                                    14
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999

Bureau management from the Decennial Systems and Contracts Management Office have made
output data from DCS 2000 testing available to bureau personnel. Bureau management should
continue this sharing of data to the extent necessary to improve the matcher and DCS 2000 in
unison. For example, bureau personnel have developed the capability of viewing the
questionnaire image in conjunction with the resulting computer standard format for each field.
Use of such a tool would facilitate the debugging of both MRR and DCS 2000. We further
discuss coordinated testing that checks the correctness of each step that processes the
questionnaire data in a later section on beginning-to-end testing.

In addition to issues associated with the matcher element of MRR, questions remain on how
effectively the PSA element applies criteria to choose members of a household. As noted above
in the discussion of the report card and evaluation results, evaluation data provides the analysts a
basis for determining how well the criteria performed and assessing whether the order in which
they are used by the algorithm is appropriate. We support this effort, which will result in a
revised set of software requirements that will aid in modifying the software to produce more
accurate results. In a section to follow that addresses developing the software requirements
specification according to software engineering standards, we cite specific areas of ambiguity
that need to be addressed in a modified specification. The bureau’s efforts to analyze the data
and determine modifications to the algorithm that remove errors and ambiguities, together with a
more rigorous approach to defining the software requirements and implementing that algorithm
should result in improved MRR processing.


II.    A More Structured Development Approach Would Improve MRR Software

Successful software development depends on defining requirements as early in the project as
feasible. To ensure that software correctly implements the intentions of the users, requirements
specifications must be complete, consistent, unambiguous, and verifiable. Use of a software
engineering standard to guide subject matter experts through the process of defining requirements
helps this effort. Applying such a standard to the development of the MRR specification would
also be beneficial in determining how MRR will compensate for questionnaire design issues,
clarifying expectations for input data quality, assessing the impacts of changes in requirements,
and guiding the testing effort.

The bureau is fortunate to have a team of experienced and dedicated analysts and developers who
are implementing MRR for the decennial census. The team hired a contractor who has assisted
them in applying software engineering principles, which has had a very positive effect. For
instance, in spite of an already compressed schedule, the team submitted new software to peer
review and extended testing to a wider variety of cases. This section highlights the need for
additional efforts of this type.




                                                 15
U.S. Department of Commerce                                                              Report OSE-10711
Office of Inspector General                                                               September 1999

A.     Bureau Software Engineering Standards Are Available but Not Widely Used

The bureau’s software standards branch in the Office of the Associate Director for Information
Technology has written a manual that describes how to write software specifications by accepted
software engineering principles. Entitled The Census Software Development Life Cycle,25 this
manual unfortunately has not been used by the MRR team for its specifications. Members of the
team who wrote the manual are still involved in software development for the bureau and are
available to provide consulting support in applying the manual to the development process. They
can help a development team tailor the manual to fit the needs and constraints of an organization.
For instance, we believe applying the third section of the manual, “Software Requirements
Definition and Analysis,” which provides guidance on how to state rigorously what the software
must accomplish, would substantially clear up MRR issues. Two other standards available
within the bureau are:

l      Programming Standards and Guidelines Manual, Bureau of the Census, March 1991, and

l      Decennial System and Contract Management Office Decennial Processing Systems
       Software Development Process, Bureau of the Census, December 11, 1997.

The programming standards manual presents standards for how to write software code. It
includes sample code and guidelines for conducting peer reviews, which can be invaluable to the
process. It also cites excellent references. The second manual was developed by the on-site
contractor and provides extensive and detailed instructions for many software engineering
methods to be applied throughout development. The MRR code and testing efforts show
evidence that developers have followed some methods advocated by these documents. However,
conformance to a standard occurred because of individual preference as opposed to a strategy
established by bureau management and supported by policy and training.

B.     The Bureau Should Define MRR Requirements More Explicitly

To determine the appropriateness and quality of the requirements specification, we reviewed the
key requirement of handling multiple responses associated with various form types and source
operations, e.g., mail return, update/leave, and Be Counted program. For any household, MRR
must handle multiple responses occurring in various combinations of form type and source
operation. During the dress rehearsal, MRR had to handle a total of 20 distinct form types—
9 long form types and 11 short form types—associated with 11 operations. Table 2 shows which
forms were distributed by each operation, grouped by long and short form.

MRR processing takes several steps to determine how household and person data should be
extracted from responses returned for a census housing unit ID. Decisions are based upon


       25
            The Census Software Development Life Cycle, Bureau of the Census, November 7, 1994.

                                                      16
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999




                                             Table 2

                Operations and Form Types Handled in Dress Rehearsal

                    Dress Rehearsal Source           Long Form     Short Form
                          Operations                   Types         Types

                Coverage edit follow-up                 DX-2          DX-1

                Mail return (MR)                        DX-2       DX-1   DX-1

                Update/leave                         DX-2(UL)       DX-1(UL)

                Update/leave ADD                     DX-2A(UL)     DX-1A(UL)

                MR Replacement                          DX-2          DX-1

                NRFU (barcoded)                        DX-2(E)       DX-1(E)

                                                     DX-2(E)(cf)   DX-1(E)SUPP

                NRFU (not barcoded)                    DX-2(E)       DX-1(E)

                                                     DX-2(E)(cf)   DX-1(E)SUPP

                Be Counted program (paper)                            DX-10

                Group quarters/special places          DX-15B        DX-15A

                                                       DX-20B        DX-20A

                                                       DX-21          DX-21

                TQA Be Counted                        TQA-10L       TQA-10S

                Large household follow-up            DX-2(HF)       DX-1(HF)
                orphans

             NOT INCLUDED IN TEST DATA

             TEST DECK TO DETERMINE MOST QUALIFIED RESPONSE FOR A HOUSEHOLD:        ID1, ID2, ID3




                                                17
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999


values of variables such as the number of responses for a household, the number of people in a
household, the completeness of the 100 percent population data, whether the response is on a
long or short form, the source operation generating the response, and the date that the response
was received. To describe how decisions are to be made by the software, the specification sets
up hierarchical rules, where lower rules act as “tiebreakers” for cases where both returns rank the
same according to all higher rules. However, because the specification does not explicitly list a
representative set of cases of multiple responses, present the resolution logic, and specify the
output, it is difficult to determine what the correct resolution of multiple responses should be
under various conditions. For example, it is unclear when:

l      Two person records on different returns are compared to see if they belong to the same
       household, whether a person record that has already been marked for deletion should still
       be utilized in the comparison.

l      A person entry on a short form response contains more complete data than the
       corresponding entry on a long form response, how that data is consolidated into the long
       form response.

l      There are more than two responses for a census housing unit ID, which pairs of responses
       are compared and how to reconcile inconsistent linking results.

Additionally, the specification cites the 100% Data Quality Index which measures the
completeness of the population data for persons reported on the response, but the specification
does not explain how to calculate the index. Also, it is unclear why more complete data for a
household, as measured by the index, does not carry more weight than its relatively low position
in the rule hierarchy and processing steps currently credit it. Finally, the specification does not
define contingencies in processing data that does not conform to items listed in the section titled
“Operational Constraints and Assumptions.” Omissions such as those cited here leave the
specification incomplete for purposes of software development. A more comprehensive
specification written according to the “Software Requirements Definition and Analysis” chapter
in the bureau’s life cycle manual would help resolve these issues, as well as facilitate testing.



In addition to its current efforts to develop rules and specifications for processing incomplete
data, the bureau needs to implement error handling procedures. Robust software is designed to
handle input conditions consisting of data values that fall outside permitted values. These error
handling procedures may attempt to fix the data to conform to permitted range values when
feasible. When data is recognized as erroneous, the software may also report these conditions for
further analysis.




                                                18
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999

Bureau standards that were cited on page 16 of this report offer some guidance about specifying
and testing erroneous data conditions:

       l       The Census Software Development Life Cycle: On pages 94 through 98 of this
               manual, the contents of the specification of a requirement are described.
               According to this manual, the processing section should include a description of
               “responses to abnormal situations.” The analyst could describe how to handle
               (fix or omit this data and report action) in this portion of the specification.

       l       Decennial System and Contract Management Office Decennial Processing
               Systems Software Development Process: Appendix B of this manual contains a
               description of various types of testing such as “equivalence partitioning” and
               “boundary condition testing.” The requirements specification would describe
               values or ranges of values that would be used for this testing.

A.     MRR Software Testing Needs to Be More Complete

The MRR team conducted testing from April through September 1998 in preparation for the
dress rehearsal. The testing began by breaking the specification’s narrative description into
individual requirements and documenting this information in a test plan. The test plan describes
the requirements to be tested, test cases and the associated procedures, as well as the test data
(referred to as test decks) for executing the procedures.

The test plan identifies 59 testable requirements. In addition, the plan describes test procedures
to cover 43 test cases, where each procedure addresses one or more requirements. The test plan
also provides guidance for the development of test decks, which are intended to satisfy the
conditions of one or more of the test cases. It also includes a section in which results from
running the software with each test deck are recorded with an indication of success or failure,
along with an explanation of the nature of any failures. The final test plan, which indicated
successful processing of each test deck, was released on September 11, 1998.

The test plan served as the basis for a commendable testing effort that was performed with great
care under severe time constraints. The test decks developed by the test team afforded valuable
input data for the developer to correct software errors in preparation for testing with dress
rehearsal data when it became available. A more complete set of test cases would further
enhance this testing effort. In Table 2, entries highlighted in red denote conditions of form type
and source operation that were not tested. For instance, the operation of coverage edit follow-up
was not tested for either the short or long form. Additionally, the operations update/leave and
update/leave ADD were not tested for the short form, and so on. In all, 14 operation-form type
combinations out of a possible 30 were not tested. More tests addressing these omissions and
ensuring that the software handles the test data as intended by the requirements are needed to
verify the correctness of the software.


                                                19
U.S. Department of Commerce                                                                         Report OSE-10711
Office of Inspector General                                                                          September 1999

As a further example, the test deck designed to test the choice of the most qualified response for
a household could include many more cases of multiple responses. This test deck uses the data
for three census housing unit IDs. The instances of form type and operation included are
highlighted in Table 2 in green, yellow, and blue; i.e., there are two instances each for ID1 and
ID2 and four instances for ID3. We suggest that multiple responses representing several more
combinations of form type and operation be tested to verify that the software chooses the most
qualified response for a household.

B.      Beginning-to-End Testing Is Needed to Ensure Consistent Results

In addition, beginning-to-end testing should be conducted with data containing comprehensive
multiple response instances for the questionnaire data path from DCS 2000 to creation of the
CUF. Beginning-to-end testing starts with scanned images of the completed forms and proceeds
with formatting the data contained in DRF1. The next step is the linking of continuation forms
and other processing that produce DRF2. The results of MRR processing of DRF2 data should
be analyzed for correctness. This testing is particularly important in ensuring that the results of
the matcher software are correct with respect to captured data and would check the correctness of
all pre-edit files.26 If the quantity and variety of data are large enough, this effort will also stress
test the software.27

Enabling headquarters processing personnel to view the scanned questionnaires’ image data
would provide a further opportunity for quality assurance, and hence improved accuracy of the
scanning procedures. The results of beginning-to-end testing should be used, as appropriate, to
adjust matcher parameters to fine-tune the scoring process or, if necessary, to modify matcher
software. Beginning-to-end testing should be repeated as modifications to DCS 2000 affect the
captured data.



The bureau has concurred with our recommendation for beginning-to-end testing and cited that
the Decennial Integrated System Test (DIST) is designed to fulfill this recommendation.
However, this testing, although valuable and needed, will start in October, 1999, which is
considerably earlier than MRR’s development and testing time frame. In addition,
documentation indicates that the DIST will treat headquarters processing of response data as a
single entity. The limited amount of input data planned for the DIST may not sufficiently test the
conditions that MRR is specified to handle. To meet this recommendation fully, the bureau
needs to conduct beginning-to-end testing with completed questionnaires that reflect a sufficient
variety of multiple response scenarios, submit the questionnaires to the processing stream starting


        26
             Pre-edit files contain all questionnaire data. Edited files contain subsets of the questionnaire data.
        27
             Stress testing is designed to overload the system in various ways.

                                                            20
U.S. Department of Commerce                                                      Report OSE-10711
Office of Inspector General                                                       September 1999

with DCS 2000 and continuing with headquarters processing including MRR. This testing
would not treat headquarters processing as a single entity but would test each component of
headquarters processing with testing tools that allow analysts and developers to monitor
processing and isolate software errors. By using these tools, bureau personnel would be able to
track processing decisions within each step, as well as to review the results of each step to find
errors.


III.   Improvements Are Needed to Make MRR Processing Timely for the 2000 Census

The Census Bureau has projected that MRR processing for the decennial census will need to be
completed within 30 days to ensure timely availability of data for follow-on processing
operations. Results for dress rehearsal indicate that unless improvements are made, MRR
processing for the decennial census will require approximately 87 days. If MRR processing
cannot be completed within the required time constraints using available computing resources,
follow-on operations will be impacted and census results will be late. Therefore, the bureau
needs to streamline MRR software design and data organization, upgrade computer resources, or
institute some combination of streamlining and upgrading to ensure timeliness of MRR results.

To assess the efficiency of MRR software design and data organization, as well as the adequacy
of the computer systems planned to run MRR software for the decennial census, we reviewed
MRR processing times for the three dress rehearsal sites. Table 3 shows the total elapsed time
required on a dedicated computer system to execute the MRR software for each dress rehearsal
site. The bureau planned to use the same headquarters computer system for MRR processing
during the decennial census. As noted, the bureau has allotted 30 days for MRR processing
during the decennial census. The total time to perform MRR processing for the approximately
400,000 households in the dress rehearsal was 6.95 hours. Under the same conditions, it would
take roughly 300 times as long—2,085 hours or 87 days—to perform the MRR processing for the
120 million households expected in the decennial census. The bureau clearly will not have
nearly this much time available. Even if the bureau were to eliminate the second mailing of
questionnaires, the time required to perform MRR processing would not be significantly affected
since fewer than 6 percent of households responded to both the initial and second mailings for
the dress rehearsal.

The MRR team has identified several ways to reduce the processing time. For example,
developers are considering using binary files, rather than ASCII files, to represent DRF2, the data




                                                21
U.S. Department of Commerce                                                                   Report OSE-10711
Office of Inspector General                                                                    September 1999

file which serves as input to the WBS and PSA software.28, 29 In general, binary files provide a
more compact representation of numeric data (e.g., age, number of persons in a household, year
of birth) than ASCII files. Additionally, binary files provide computational efficiency over
ASCII files in that numeric data does not need to be converted from its ASCII representation
before computations can be performed using data read from the file. Developers have also found
that using vendor-provided file compression software reduces both processing times and the
amount of disk storage used.


                                             Table 3
                              MRR Processing Times in Dress Rehearsal

                                   Menominee         Columbia        Sacramento       Total (all three sites)
 WBS processing                            .0190         3.1830            1.9405                       5.142
 PSA processing                            .0165         1.1365             .6550                       1.808
 Total                                     .0355         4.3190            2.5950                       6.950
 Table entries represent processing time in hours.



The bureau has decided not search for matches for any persons outside the census housing unit
ID for which they are reported, which is a function performed by WBS for dress rehearsal. Based
on the evaluation studies for this element, bureau personnel have observed that few matches were
found and that the block-wide search conducted for dress rehearsal accounts for 70 percent of all
the processing time for MRR. Therefore, simplifying the design by eliminating searching for
person matches outside the census housing unit ID would realize considerable processing-time
savings. If the bureau determines that the trend observed in the dress rehearsal will likely be the
same for the census, then this would be a valid design change.

Bureau managers and staff have expressed concern not only about the adequacy of headquarters
computing resources to support MRR, but other decennial census operations as well. As a result,
we believe that the MRR team should continue to pursue ways to streamline MRR software
design and data organization and that bureau managers should upgrade headquarters computer



         28
          Binary pertains to a number system that has just two unique digits, 0 and 1. Computers are based on the
binary number system.
         29
           ASCII is the acronym for the American Standard Code for Information Interchange. ASCII is a code for
representing English characters as numbers, with each character assigned a number from 0 to 127. Most computers
use ASCII codes to represent text, and files used to store ASCII coded text are commonly referred to as ASCII files.

                                                        22
U.S. Department of Commerce                                                   Report OSE-10711
Office of Inspector General                                                    September 1999

resources to ensure timely processing for MRR and other required operations for the decennial
census.


                                        CONCLUSION

As a result of the foregoing issues, the bureau must make important decisions concerning MRR
requirements and design and perform significant development and testing work. The bureau has
recognized many of the problems that we have discussed and is performing analysis of the dress
rehearsal and evaluation data and working on improvements to MRR, as well as automated data
capture. However, the bureau has not fully defined the activities needed to refine MRR and
complete its development. Because of the complexity and amount of work remaining to be done
in time for the decennial, the bureau needs to define the remaining tasks and plan carefully for
their completion.

The bureau needs to produce a rigorous and complete MRR requirements specification and
should use its software engineering standard, The Census Software Development Life Cycle
manual to do so. The bureau also needs to develop a comprehensive test plan following the same
template used for the dress rehearsal to ensure that the software correctly implements the MRR
requirements. Finally, the bureau needs to complete software development and testing in
accordance with the specification and test plan. To accomplish these tasks successfully, the
bureau should prepare a plan that identifies all of the decisions to be made and work to be
performed, along with the responsible organizations, a realistic schedule, and a complete list of
milestones.

MRR is only one of many processing elements that manipulates questionnaire data from the
public and is used to create the final decennial tabulations. The same structured software
development process that is needed for MRR, including clear and complete requirements and
thorough testing, is essential for all software. Ensuring the correctness of the software also
requires beginning-to-end testing of all processing elements. Use of more rigorous software
development methods and sharing data among processing elements in a coordinated fashion will
help the bureau secure accurate results for the 2000 Decennial Census.




                                               23
U.S. Department of Commerce                                                   Report OSE-10711
Office of Inspector General                                                    September 1999

                                  RECOMMENDATIONS

We recommend that the Director of the Census Bureau direct senior management for the 2000
Decennial Census to take the necessary actions to:

1.     Establish an appropriate standard of measuring the success of MRR processing.

       The bureau concurred with this recommendation.

2.     Identify both the accuracy of MRR in resolving multiple responses as well as the impact
       of MRR errors on the total enumeration when reporting on the success of MRR.

       The bureau concurred with this recommendation.

3.     Define and implement “intelligent keying” guidelines to process data sent to the KFI
       component of DCS 2000.

       The bureau stated that it has developed and is reviewing such guidelines and will report
       to the OIG as soon as a decision is made.

4.     Develop a rigorous and complete revision of the MRR software requirements
       specification by:

       a.     Obtaining assistance from the Office of the Associate Director for Information
              Technology in using Chapter 3 of the Census Software Development Life Cycle
              manual to develop a revised software requirements specification.

       b.     Specifying a revised set of software requirements necessary to implement PSA
              with the highest probability of resolving multiple responses accurately as
              determined by the MRR team’s analysis of the evaluation data.

       c.     Specifying a revised set of software requirements for use by the matcher by
              creating a team of DCS 2000 contractor and bureau analysts to analyze data
              produced by DCS 2000 and corresponding matcher output.

       d.     Specifying the software requirements necessary to address data quality issues,
              such as how to handle incomplete, inconsistent, or erroneous data.

       The bureau concurred with Recommendations No. 4a through 4c and requested
       clarification on No. 4d, which is provided on pages 18-19.




                                              24
U.S. Department of Commerce                                                   Report OSE-10711
Office of Inspector General                                                    September 1999

5.     Plan, schedule, and implement all tasks needed to complete MRR definition,
       development, and testing, including:

       a.     Developing the revised MRR software requirements specification in accordance
              with Recommendation No. 4.

       b.     Evaluating approaches to streamline MRR design and data organization.

       c.     Developing a test plan based upon the software requirements, using the same
              template that the MRR team used for the dress rehearsal test plan.

       d.     Developing the software in accordance with the specification.

       e.     Testing the software in accordance with the test plan.

       f.     Performing beginning-to-end testing of the questionnaire data processing stream
              from DCS 2000 through MRR using available debugging tools.

       The bureau concurred with Recommendation Nos. 5a through 5f. Further description of
beginning-to-end testing that would more fully satisfy Recommendation No. 5f is provided on
pages 20-21.

6.     Assess whether selective use of clerical quality assurance procedures would be cost
       effective as part of MRR.

       The bureau stated that this recommendation has been resolved.

7.     Determine the additional headquarters computing resources needed to ensure timely
       processing of multiple response resolution and all other required operations for the
       decennial census, and obtain these resources.

       The bureau stated that this recommendation has been resolved.

8.     Revise enumerator training to emphasize the importance of obtaining complete and
       accurate input data because poor response data precludes accurate processing.

       The bureau stated that this recommendation has been resolved.

The bureau’s complete response is included as the appendix of this report.




                                               25
